Supreme Court, U.S.
FILED

WAIVER

MAY 0 3 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Wilson

20-7724
Ndoh, Warden

v.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

,

Digitally signed by Lisa H. Ott
' Date: 2021.05.03 14:54:16 -07'00'

Lisa H. Ott
May 3, 2021

Date.

(Type or print) Name

Lisa Ashley Ott
0 Mr. 0 Ms. 0 Mrs.

Firm

California Department of Justice, CA Attorney General's Office

Address

455 Golden Gate Avenue, Suite 11000

City & State
Phone

❑ Miss

San Francisco, CA

(415) 510-3839

Zip 94102-7004
Email lisa.ott@doj.ca.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Stepanie Adraktas, 2625 Alcatraz Avenue, #233, Berkeley, CA 94705 415-699-1507

RECEIVED
MAY 1 1 2021
oFFICE OF THE CLERK
SUPREME COURT, U.S.

